<html>
<title> - EXAMINING PUBLIC HEALTH LEGISLATION TO HELP LOCAL COMMUNITIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
     EXAMINING PUBLIC HEALTH LEGISLATION TO HELP LOCAL COMMUNITIES

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 20, 2013

                               __________

                           Serial No. 113-101


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
87-804                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3651465976554345425e535a461855595b18">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
MICHAEL C. BURGESS, Texas            MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                      JIM MATHESON, Utah
PHIL GINGREY, Georgia                G.K. BUTTERFIELD, North Carolina
STEVE SCALISE, Louisiana             JOHN BARROW, Georgia
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   DONNA M. CHRISTENSEN, Virgin 
GREGG HARPER, Mississippi            Islands
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BILL CASSIDY, Louisiana              JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    BRUCE L. BRALEY, Iowa
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
CORY GARDNER, Colorado               BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Ohio
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

                                 7_____

                         Subcommittee on Health

                     JOSEPH R. PITTS, Pennsylvania
                                 Chairman
MICHAEL C. BURGESS, Texas            FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               JOHN D. DINGELL, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                LOIS CAPPS, California
TIM MURPHY, Pennsylvania             JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          JIM MATHESON, Utah
PHIL GINGREY, Georgia                GENE GREEN, Texas
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            JOHN BARROW, Georgia
BILL CASSIDY, Louisiana              DONNA M. CHRISTENSEN, Virgin 
BRETT GUTHRIE, Kentucky                  Islands
H. MORGAN GRIFFITH, Virginia         KATHY CASTOR, Florida
GUS M. BILIRAKIS, Florida            JOHN P. SARBANES, Maryland
RENEE L. ELLMERS, North Carolina     HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     2
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    66
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, opening statement.....................................    67
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................    67
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................    67
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................    68
    Prepared statement...........................................    68
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................    69
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    69
    Prepared statement...........................................    70
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................   194

                               Witnesses

Marsha Ford, President, American Association of Poison Control 
  Centers........................................................    90
    Prepared statement...........................................    93
    Answers to submitted questions...............................   196
Steven J. Stack, Immediate Past Chair, Board of Trustees, 
  American Medical Association...................................   100
    Prepared statement...........................................   102
    Answers to submitted questions...............................   200
Drew Nagele, Board of Directors, Brain Injury Association of 
  America........................................................   107
    Prepared statement...........................................   109
Edward R.B. McCabe, Senior Vice President and Chief Medical 
  Officer, March of Dimes Foundation.............................   112
    Prepared statement...........................................   114
Patricia V. Smith, President, Lyme Disease Association, Inc......   120
    Prepared statement...........................................   122
Laura Crandall, Program Director, Sudden Unexplained Death in 
  Childhood Program..............................................   130
    Prepared statement...........................................   132
Robert MtJoy, Chief Executive Officer, Cornerstone Care, Inc.....   145
    Prepared statement...........................................   147
    Answers to submitted questions...............................   210

                           Submitted Material

H.R. 1098, the Traumatic Brian Injury Reauthorization Act of 
  2013, submitted by Mr. Pitts...................................     3
H.R. 1281, the Newborn Screening Saves Lives Reauthorization Act 
  of 2013, submitted by Mr. Pitts................................     6
H.R. 610, A Bill to provide for the establishment of the Tick-
  Borne Diseases Advisory Committee, submitted by Mr. Pitts......    19
H.R. 669, the Sudden Unexpected Death Data Enhancement and 
  Awareness Act, submitted by Mr. Pitts..........................    25
H.R. 2703, the Family Health Care Accessibility Act of 2013, 
  submitted by Mr. Pitts.........................................    47
H.R. --------, the Poison Center Network Act, submitted by Mr. 
  Pitts..........................................................    53
H.R. --------, the National All Schedules Prescription Electronic 
  Reporting Reauthorization Act of 2013, submitted by Mr. Pitts..    58
Letter of November 20, 2013, from Carmen A. Catizone, Executive 
  Director Secretary, National Association of Boards of Pharmacy, 
  to Mr. Pitts and Mr. Pallone, submitted by Mr. Pitts...........    72
Statement, dated November 20, 2013, of the National Association 
  of Chain Drug Stores, submitted by Mr. Pitts...................    75
Letter of November 19, 2013, from the National Organization for 
  Injury and Violence Prevention to Mr. Upton and Mr. Waxman, 
  submitted by Mr. Pitts.........................................    82
Letter of November 19, 2013, from Barbara E. Murray, President, 
  Infectious Diseases Society of America, to Mr. Upton, et al., 
  submitted by Mr. Pitts.........................................    84
Letter of November 19, 2013, from Martha A. Roherty, Executive 
  Director, National Association of States United for Aging and 
  Disabilities, to Mr. Upton and Mr. Waxman, submitted by Mr. 
  Pitts..........................................................    86
Letter of November 20, 2013, from the Alliance to Prevent the 
  Abuse of Medicines to Mr. Whitfield, submitted by Mr. Pitts....    88
Letters of endorsement, dated February 28 through November 20, 
  2013, submitted by Mr. Pallone.................................   156
Statement of Hon. Bill Pascrell, Jr., a Representative in 
  Congress from the State of New Jersey, dated November 20, 2013, 
  submitted by Mr. Pallone.......................................   184


     EXAMINING PUBLIC HEALTH LEGISLATION TO HELP LOCAL COMMUNITIES

                              ----------                              


                      WEDNESDAY, NOVEMBER 20, 2013

                  House of Representatives,
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:00 p.m., in 
room 2123, Rayburn House Office Building, Hon. Joseph R. Pitts 
(chairman of the subcommittee) presiding.
    Members present: Representatives Pitts, Burgess, Whitfield, 
Shimkus, Murphy, Blackburn, Lance, Griffith, Bilirakis, 
Pallone, Green, Barrow, Castor, and Waxman (ex officio).
    Staff present: Noelle Clemente, Press Secretary; Brenda 
Destro, Professional Staff Member, Health; Brad Grantz, Policy 
Coordinator, Oversight and Investigations; Sydne Harwick, 
Legislative Clerk; Katie Novaria, Legislative Clerk; Andrew 
Powaleny, Deputy Press Secretary; Chris Sarley, Policy 
Coordinator, Environment and the Economy; Heidi Stirrup, Policy 
Coordinator, Health; Ziky Ababiya, Democratic Staff Assistant; 
Elizabeth Letter, Democratic Assistant Press Secretary; and 
Anne Morris Reid, Democratic Professional Staff Member.
    Mr. Pitts. Thank you for your patience. I ask all guests 
please take their seats. The subcommittee will come to order. 
The Chair will recognize himself for an opening statement.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Today's legislative hearing examines seven important 
bipartisan public health bills aimed at improving the health of 
our families and communities. They are H.R. 1098, the Traumatic 
Brain Injury Reauthorization Act of 2013 introduced by 
Representative Bill Pascrell, which reauthorizes programs at 
the Centers for Disease Control and Prevention, CDC, to reduce 
the incidents of traumatic brain injury, TBI, and TBI 
surveillance systems and registries; H.R. 1281, the Newborn 
Screening Saves Lives Reauthorization Act of 2013 introduced by 
Representative Lucille Roybal-Allard, which reauthorizes 
Federal programs that provide assistance to States to improve 
and expand their newborn screening programs; H.R. 610, a bill 
to provide for the establishment of the Tick-Borne Diseases 
Advisory Committee introduced by Representative Chris Smith to 
ensure interagency coordination and communications on these 
diseases; H.R. 669, the Sudden Unexpected Death Data 
Enhancement and Awareness Act, introduced by Ranking Member 
Pallone which provides for grants to help improve the 
understanding of sudden unexpected death; H.R. 2703, the Family 
Healthcare Accessibility Act of 2013 introduced by 
Representative Tim Murphy, which would provide Federal Tort 
Claims Act protection for health care professionals who 
volunteer their time at community health centers; H.R. 3527, 
the Poison Control Centers Reauthorization Act, a very well-
crafted bill introduced by Representative Lee Terry and will 
reauthorize important activities related to poison control 
centers; and H.R. 3528, National All Schedules Prescription 
Electronic Reporting, NASPER, Reauthorization Act introduced by 
Representative Ed Whitfield, which will reauthorize the NASPER 
program to support State prescription drug monitoring programs.
    [The prepared statement of Mr. Pitts follows:]

               Prepared statement of Hon. Joseph R. Pitts

    The subcommittee will come to order.
    The Chair will recognize himself for an opening statement.
    Today's legislative hearing examines seven important, 
bipartisan public health bills aimed at improving the health of 
our families and communities. They are:
    <bullet> H.R. 1098--the Traumatic Brain Injury 
Reauthorization Act of 2013, introduced by Rep. Bill Pascrell, 
which reauthorizes programs at the Centers for Disease Control 
and Prevention (CDC) to reduce the incidence of traumatic brain 
injury (TBI), and TBI surveillance systems and registries.
    <bullet> H.R. 1281--the Newborn Screening Saves Lives 
Reauthorization Act of 2013, introduced by Rep. Lucille Roybal-
Allard, which reauthorizes Federal programs that provide 
assistance to States to improve and expand their newborn 
screening programs.
    <bullet> H.R. 610--a bill to provide for the establishment 
of the Tick-Borne Diseases Advisory Committee, introduced by 
Rep. Chris Smith to ensure interagency coordination and 
communication on these diseases.
    <bullet> H.R. 669--the Sudden Unexpected Death Data 
Enhancement and Awareness Act, introduced by Ranking Member 
Pallone, which provides for grants to help improve the 
understanding of sudden unexpected death.
    <bullet> H.R. 2703--the Family Health Care Accessibility 
Act of 2013, introduced by Rep. Tim Murphy, which would provide 
Federal Torts Claim Act protection for health care 
professionals who volunteer their time at community health 
centers.
    <bullet> H.R. ----, the Poison Control Centers 
Reauthorization, will be introduced by Rep. Lee Terry, and will 
reauthorize important activities related to poison control 
centers.
    <bullet> And H.R. ----, National All Schedules Prescription 
Electronic Reporting (NASPER) Reauthorization Act, will be 
introduced by Rep. Ed Whitfield, will reauthorize the NASPER 
program to support State prescription drug monitoring programs.
    I look forward to hearing from our witnesses, and I'd like 
to yield time to some of the sponsors of these bills.

    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7804.001
    
    [GRAPHIC] [TIFF OMITTED] T7804.002
    
    [GRAPHIC] [TIFF OMITTED] T7804.003
    
    [GRAPHIC] [TIFF OMITTED] T7804.004
    
    [GRAPHIC] [TIFF OMITTED] T7804.005
    
    [GRAPHIC] [TIFF OMITTED] T7804.006
    
    [GRAPHIC] [TIFF OMITTED] T7804.007
    
    [GRAPHIC] [TIFF OMITTED] T7804.008
    
    [GRAPHIC] [TIFF OMITTED] T7804.009
    
    [GRAPHIC] [TIFF OMITTED] T7804.010
    
    [GRAPHIC] [TIFF OMITTED] T7804.011
    
    [GRAPHIC] [TIFF OMITTED] T7804.012
    
    [GRAPHIC] [TIFF OMITTED] T7804.013
    
    [GRAPHIC] [TIFF OMITTED] T7804.014
    
    [GRAPHIC] [TIFF OMITTED] T7804.015
    
    [GRAPHIC] [TIFF OMITTED] T7804.016
    
    [GRAPHIC] [TIFF OMITTED] T7804.017
    
    [GRAPHIC] [TIFF OMITTED] T7804.018
    
    [GRAPHIC] [TIFF OMITTED] T7804.019
    
    [GRAPHIC] [TIFF OMITTED] T7804.020
    
    [GRAPHIC] [TIFF OMITTED] T7804.021
    
    [GRAPHIC] [TIFF OMITTED] T7804.022
    
    [GRAPHIC] [TIFF OMITTED] T7804.023
    
    [GRAPHIC] [TIFF OMITTED] T7804.024
    
    [GRAPHIC] [TIFF OMITTED] T7804.025
    
    [GRAPHIC] [TIFF OMITTED] T7804.026
    
    [GRAPHIC] [TIFF OMITTED] T7804.027
    
    [GRAPHIC] [TIFF OMITTED] T7804.028
    
    [GRAPHIC] [TIFF OMITTED] T7804.029
    
    [GRAPHIC] [TIFF OMITTED] T7804.030
    
    [GRAPHIC] [TIFF OMITTED] T7804.031
    
    [GRAPHIC] [TIFF OMITTED] T7804.032
    
    [GRAPHIC] [TIFF OMITTED] T7804.033
    
    [GRAPHIC] [TIFF OMITTED] T7804.034
    
    [GRAPHIC] [TIFF OMITTED] T7804.035
    
    [GRAPHIC] [TIFF OMITTED] T7804.036
    
    [GRAPHIC] [TIFF OMITTED] T7804.037
    
    [GRAPHIC] [TIFF OMITTED] T7804.038
    
    [GRAPHIC] [TIFF OMITTED] T7804.039
    
    [GRAPHIC] [TIFF OMITTED] T7804.040
    
    [GRAPHIC] [TIFF OMITTED] T7804.041
    
    [GRAPHIC] [TIFF OMITTED] T7804.042
    
    [GRAPHIC] [TIFF OMITTED] T7804.043
    
    [GRAPHIC] [TIFF OMITTED] T7804.044
    
    [GRAPHIC] [TIFF OMITTED] T7804.045
    
    [GRAPHIC] [TIFF OMITTED] T7804.046
    
    [GRAPHIC] [TIFF OMITTED] T7804.047
    
    [GRAPHIC] [TIFF OMITTED] T7804.048
    
    [GRAPHIC] [TIFF OMITTED] T7804.049
    
    [GRAPHIC] [TIFF OMITTED] T7804.050
    
    [GRAPHIC] [TIFF OMITTED] T7804.051
    
    [GRAPHIC] [TIFF OMITTED] T7804.052
    
    [GRAPHIC] [TIFF OMITTED] T7804.053
    
    [GRAPHIC] [TIFF OMITTED] T7804.054
    
    [GRAPHIC] [TIFF OMITTED] T7804.055
    
    [GRAPHIC] [TIFF OMITTED] T7804.056
    
    [GRAPHIC] [TIFF OMITTED] T7804.057
    
    [GRAPHIC] [TIFF OMITTED] T7804.058
    
    [GRAPHIC] [TIFF OMITTED] T7804.059
    
    [GRAPHIC] [TIFF OMITTED] T7804.060
    
    [GRAPHIC] [TIFF OMITTED] T7804.061
    
    [GRAPHIC] [TIFF OMITTED] T7804.062
    
    [GRAPHIC] [TIFF OMITTED] T7804.063
    
    Mr. Pitts. I look forward to hearing from all of our 
witnesses, and I would like to yield the balance of my time to 
Dr. Murphy from Pennsylvania.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Thank you, Mr. Chairman. Health centers are 
quality low cost medical homes for millions, but they are more 
than just doctor's offices. They are a place where a child sees 
a pediatrician and an adult gets a checkup from their 
internist, someone can see the dentist or receive mental health 
care or prenatal care. Together, medical professionals at 
health centers coordinate care and work as a team saving nearly 
$25 billion each year, money that would otherwise be spent on 
caring for sicker patients in emergency rooms. That is the good 
news. But the sad news is there is a serious shortage of 
providers, and no matter how great the center, families can 
experience long delays because of the shortage.
    Health centers located in medically underserved urban or 
rural areas report a 27 percent shortage of dentists, a 26 
percent shortage of OB/GYNs, a 13 percent shortage of family 
physicians, and there are also shortages of psychiatrists and 
psychologists. The centers simply do not have enough money to 
hire additional staff required to cover the growing patient 
needs, but there is an answer.
    Part-time and semi-retired health professionals want to 
help out but are unable to volunteer because of Federal 
barriers. Oddly enough, at Federal free clinics, volunteer 
providers receive medical malpractice coverage by the Federal 
Torts Claim Act. On the other hand, doctors and professionals 
employed by health centers are covered by the Federal Torts 
Claim Act, but volunteers at health centers don't get that 
liability protection, which then costs the centers thousands of 
dollars, and in some cases, well over 100,000 per year for 
these extra doctors. Clinics cannot afford that extra expense.
    The Government Accountability Office has found that medical 
liability insurance costs poses a significant barrier for 
providers who otherwise would be eager to volunteer at health 
centers. The Family Health Care Accessibility Act fixes this 
disparity and opens the door for volunteer providers at clinics 
all over the country.
    I want thank Chairman Pitts and Chairman Upton for holding 
this hearing, and my partner, a friend of this legislation, 
Gene Green of Texas. I also want to thank Bob MtJoy of 
Cornerstone Care in Washington, Greene County, for being here 
today to testify about the potential for this legislation to 
help millions of families. We have a chance to do something to 
expand care to millions of Americans with this act without 
raising the bills for families or taxpayers. This is an example 
of real bipartisan reform that helps people get the health care 
they need, when they need it close to home at an affordable 
cost. Isn't that what we all want in health care? Thank you, 
and I yield back.
    Mr. Pitts. The Chair thanks the gentleman. Now yields 5 
minutes to the lady from Florida, Ms. Castor, filling in for 
Ranking Member Pallone.

  OPENING STATEMENT OF HON. KATHY CASTOR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Castor. Well, thank you very much, Mr. Chairman, for 
calling this hearing today examining public health legislation 
to help our local communities. We are grateful to the public 
health experts, who we will hear from today, and I would also 
like to commend many of my colleagues who have offered 
legislation to combat some of the most serious public health 
problems facing many of our families all across this country, 
particularly when it comes to health centers, when it comes to 
newborn screening, poison control, and the terrible problem I 
am going to talk about a little bit later of pill mills and how 
we monitor the prescription drug abuse. So, thank you again, 
and at this time I am happy to yield to Mr. Waxman. Otherwise, 
he could take a full 5 minutes if he would like.
    Mr. Waxman. I am going to wait till my turn.
    Ms. Castor. OK. Then I will yield back. Thank you.
    Mr. Pitts. The Chair recognizes the gentleman from 
Illinois, Mr. Shimkus, for 5 minutes.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. My job is really to 
stall for Mr. Whitfield to get here, but since--that is a joke, 
so. It is good to have you-all here. What I--we get a lot of 
health care providers come to talk with us on public policy all 
the time, and what I always ask them in the end when they leave 
is to help us on the budgetary debate because we can authorize 
all we want, but if we don't solve or major budgetary problem, 
the discretionary budget keeps shrinking, which means less 
appropriations for the authorized committee, so you-all could 
help. I am not asking you to lobby, but I do ask you to get a 
good understanding of our real budgetary problems here and help 
us in that discourse.
    Mr. Chairman, there is also another bill that I am not 
trying to put pressure, but I just want you to put on your 
record. It is H.R. 1252. We have got 90 cosponsors. It is 
called, ``The Access to Care in Rural Communities,'' and it is 
really about physical therapy being defined within the primary 
health service for the purpose of the Health Services 
Corporation, and if you would take a look at that, that is 
bipartisan, and as we are talking about other bills that can be 
very helpful, I think that would be helpful for rural America.
    And with that, I would offer to the--Marsha Blackburn for 
as much time as she may consume.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. I thank the gentleman from Illinois for 
yielding, and I just want to welcome each of you and to commend 
you for the work that you do and the role that you play, not 
only in delivering health care services but in the education 
component that is so vitally important to so many health care 
consumers, especially young moms, those that have experienced 
traumatic injury. It is something that many times we do not put 
enough emphasis upon, and I appreciate that many of you are 
dedicated to that as a part of your core mission. With that, I 
yield back to the gentleman.
    Mr. Shimkus. The gentlelady yields, and I yield back to 
you, Mr. Pitts.
    Mr. Pitts. Would you yield to Mr. Pallone, please?
    Mr. Shimkus. I would be honored to yield to the ranking 
member of the subcommittee.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you. I am not going to take up time 
because I know that Ms. Castor spoke on behalf of the 
Democrats, but I just wanted to thank--well, I should say a 
very special welcome to Laura Crandall from New Jersey. She and 
I have worked together for many years on the bill, my bill that 
is before the subcommittee today, and I just want to say that 
your strength and determination is commendable, so thank you. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you, Chairman Pitts, and thank you to our witnesses 
for being here today; a very special welcome to Laura Crandall 
from New Jersey. She and I have worked together for many years 
on my bill that is before the subcommittee today. Your strength 
and determination is commendable.
    I am happy that the subcommittee is having this hearing and 
moving forward with several public health bills. It is an 
important function of this subcommittee to examine public 
health priorities and to move legislation to promote and 
protect the public health. I would like to say a few words 
about each of the seven bills before us today.
    Firstly, I am particularly pleased that we will be 
examining a bill that I introduced, H.R. 669, the Sudden 
Unexpected Death Data Enhancement and Awareness Act. Stillbirth 
and sudden unexpected infant death affect tens of thousands of 
families every year, according to data from CDC, and sudden 
infant death syndrome is the leading cause of death for infants 
up to 12months old. However, we currently lack the 
comprehensive, high-quality data we need to help better 
understand this problem.
    My bill seeks to enhance CDC's activities in this area and 
would expand and standardize surveillance and data collection 
for stillbirth and sudden unexpected infant death and develop 
protocols and training for medical examiners for investigating 
these tragic deaths. I would like to submit for the record 
endorsement letters from 24 organizations, including the CJ 
Foundation, the American Academy of Pediatrics, and First 
Candle.
    I am proud to be a cosponsor of another bill we will 
examine today. H.R. 1098, the Traumatic Brain Injury 
Reauthorization Act of 2013, was authored by my friend and 
colleague from New Jersey, Mr. Pascrell. Traumatic brain injury 
(or ``TBI'') has been dubbed ``the silent epidemic,'' with at 
least 1.7 million TBI's occurring every year in the United 
States, manycausing death or permanent disability. This bill 
would continue efforts to advance better surveillance, 
prevention, and treatment of this serious public health 
problem.
    We will also cover today, the Newborn Screening Saves Lives 
Reauthorization Act of 2013, which would update the 2008 law 
that established national newborn screening guidelines by 
expanding and improving State screening programs, parent and 
provider education, and follow-up care. Newborn screening 
allows thousands of infants every year the chance to recognize 
and manage detectable conditions early on, and it improves 
their chances of a more positive health outcome and better 
quality of life.
    We will also hear from our witnesses on H.R. 610, a bill 
that would establish a Tick-Borne Diseases Advisory Committee 
within the Office of the Secretary of Health and Human Services 
to prioritize and coordinate efforts to address tick-borne 
diseases like Lyme disease. CDC estimates there are 300,000 
cased of Lyme disease every year, and it is my understanding 
thatLyme disease is a growing threat in the United States, due 
to ecological changes and changes in land use over the past few 
decades that have increased the number and proximity to humans 
of wild animal Lyme hosts and the ticks that can spread it to 
humans.
    The fifth bill we will look at today is H.R. 2703, the 
Family Health Care Accessibility Act of 2013, which would 
decrease barriers to healthcare professionals volunteering at 
community health centers (or ``CHCs''). CHCs provide vital 
access to care, especially for those underserved and vulnerable 
populations who can benefit most from the comprehensive, 
quality primarycare services these centers provide. For the 
over 22 million patients currently served by CHCs, it is 
important that these centers are adequately staffed.
    Another bill we will consider today would reauthorize the 
poison control center grant program. I understand that poison 
exposure is a leading cause of unintentional injury in the 
United States, and poison control centers help to reduce the 
number of deaths and the severity of illness caused by 
poisoning.
    Finally, I am glad that we are considering the National All 
Schedules Prescription Electronic Reporting (or ``NASPER'') 
Reauthorization, which I coauthored with my colleague from 
Kentucky, Mr. Whitfield. This legislation helps States set up 
prescription drug monitoring programs in order to combat 
prescription drug abuse, which is a growing epidemic in the 
United States. It is critical that we continue support for this 
program through Federal funding.
    Thank you to the many Members who have led these important 
efforts by introducing these bills. I look forward to hearing 
from our witnesses on these important public health issues. 
Thank you.

    Mr. Pitts. The Chair----
    Mr. Shimkus. I am reclaiming my time. Now I would like to 
recognize Mr. Whitfield from the great State of Kentucky for 
the remainder of the time.
    Mr. Pitts. All right. Two minutes.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Thank you very much. I appreciate it so 
much. And Chairman Pitts, I want to thank you for holding this 
hearing on this important topic, including H.R. 3528, the 
NASPER reauthorization as part of the discussion today. I would 
like to thank our witnesses for being here, particularly Dr. 
Steven Stack, a fellow Kentuckian from Lexington who will be 
testifying about the importance of prescription drug monitoring 
programs.
    As you know, NASPER was authorized some years ago, we have 
always had a battle like a lot of other programs in obtaining 
sufficient money to make NASPER be what it should be. There is 
a companion program over at the Department of Justice, 
prescription drug monitoring, but it is more focused on law 
enforcement. So, I want to thank the chairman very much for 
working with us on this reauthorization and look forward to the 
testimony of the witnesses today.
    And Mr. Shimkus, thank you so much for yielding me the 
time.
    Mr. Shimkus. And I yield back, Mr. Chairman.
    Mr. Pitts. The Chair thanks the gentleman. I now recognize 
the ranking member of the full committee, Mr. Waxman, 5 minutes 
for opening statement.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman. I appreciate 
you holding this hearing. These bipartisan bills strengthen 
Department of Health and Human Services programs on addressing 
new public health challenges. It is critical that this 
committee continues its focus on public health issues since our 
actions in the public health arena have such a far-reaching 
effect on the Nation's health.
    We have a number of bills. H.R. 610 deals with the Lyme and 
other tick-borne diseases. There is the Sudden Unexpected Death 
Data Enhancement and Awareness Act. We have the H.R. 1098, 
Traumatic Brain Injury Reauthorization, and we have, also 
considering H.R. 1281, the Newborn Screening Saving Lives 
Reauthorization Act, the Family Health Care Accessibility Act 
of 2013 allowing community health centers to offer malpractice 
insurance coverage to their employees, contractors, and 
officers with the--under the Federal Tort Claim Act; H.R. 3527, 
the Poison Center Network Act, which reauthorizes the Poison 
Control Program; and then H.R. 3528, the National All Schedules 
Prescription Electronic Reporting Act--Reauthorization Act of 
2013.
    I have longer statements about each of these, which I will 
put into the record, but I want to commend a Democratic and 
Republican Energy and Commerce Committee members and their 
staffs who have authorized a number of the bills before us, Mr. 
Pallone, Mr. Engel, Green, Whitfield, Terry, and Murphy, and 
acknowledge the sponsors of the other measures, Congresswoman 
Roybal-Allard, Congressman Pascrell, Congressman Smith.
    We have a panel of stakeholders to share their views on 
these bills, and I want to thank each of you for--in advance 
for your testimony. I don't want to be parochial, but Dr. 
McCabe was from California, but wherever you are from, we have 
a national perspective to protect the public health, and so I 
want to welcome all of you here today.
    Mr. Chairman, I also hope we can work together on getting 
the administration's input on each of these measures as they 
move forward. With those comments, I will yield back the 
balance of my time.
    [The prepared statement of Mr. Waxman follows:]

               Prepared statement of Hon. Henry A. Waxman

    Mr. Chairman, thank you for convening this afternoon's 
hearing on bipartisan bills that strengthen existing Department 
of Health and Human Services programs or address new public 
health challenges. It is critical that this committee continues 
its focus on public health issues, since our actions in the 
public health arena have such a far-reaching effect on the 
Nation's health.
    H.R. 610 would establish a committee to advise the 
Secretary of HHS on the Department's Lyme and other tick-borne 
disease activities. The Centers for Disease Control and 
Prevention reports there has been a reemergence of tick-borne 
disease--with hundreds of thousands of estimated annual Lyme 
disease cases alone.
    The Sudden Unexpected Death Data Enhancement and Awareness 
Act or H.R. 669 addresses three, devastating health events--
stillbirth, the unexpected loss of an infant, and the 
unexpected death of a child.
    Thousands of expectant mothers and parents experience a 
later-stage pregnancy loss or death of an infant due to causes 
that are not immediately apparent. Less is known about the 
unexplained deaths of young kids, like the daughter of one of 
today's witnesses--Ms. Crandall. H.R. 669 seeks to improve our 
understanding of the causes of these tragic events--and, in 
turn, help us to better prevent them.
    H.R. 1098 or the Traumatic Brain Injury Reauthorization Act 
of 2013 extends TBI surveillance and research activities, and 
programs for services and supports administered across the 
Department. Millions of Americans experience a traumatic brain 
injury each year. One goal of H.R. 1098 is to allow the 
Department to better coordinate TBI activities with other HHS 
programs focused on increased access to community supports.
    We are also considering H.R. 1281, the Newborn Screening 
Saves Lives Reauthorization Act of 2013. This legislation 
extends newborn screening services and related activities 
forconditions like sickle cell anemia--that are not otherwise 
apparent at birth and, if left untreated, can cause severe 
disability or even death.
    The Family Health Care Accessibility Act of 2013, H.R. 
2073, would allow community health centers to offer malpractice 
coverage available to their employees, contractors, and 
officers under the Federal Tort Claims Act to health 
practitioner volunteers. In doing so, H.R. 2073 seeks to 
eliminate possible disincentives for health practitioners to 
volunteer. The House passed similar legislation during the 
111th Congress.
    H.R. 3527 or the Poison Center Network Act reauthorizes the 
Poison Control Program. Federal funding for the Nation's poison 
control centers supports the provision of treatment advice on 
poisonings to health professionals and the public; educational 
activities; and poison exposure surveillance efforts. The 
poison control network plays an important role in reducing the 
number of injuries and deaths resulting from poisoning and 
overdose
    The final bill is H.R. 3528, the National All Schedules 
Prescription Electronic Reporting Reauthorization Act of 2013, 
a second measure related to overdose. The NASPER 
Reauthorization Act would extend the Department's prescription 
drug monitoring program first authorized in 2005 and strengthen 
the interoperability of State NASPER programs.
    During a June subcommittee hearing, witnesses described how 
programs like this one help respond to the prescription drug 
overdose epidemic. Congress also passed legislation nearly 
identical to H.R. 3528 during the 111th Congress. I want to 
commend the Democratic and Republican Energy and Commerce 
Members who authored a number of the bills before us--Ranking 
Member Pallone and Congressmen Engel, Green, Whitfield, Terry, 
and Murphy. I'd also like to acknowledge the sponsors of the 
other measures--Congresswoman Roybal-Allard, Congressman 
Pascrell, and Congressman Smith.
    We have a panel of stakeholders to share their views on 
these bills, and I want to thank each of the witnesses in 
advance for their testimony. Mr. Chairman, I also hope that we 
can work together on getting the administration's input on each 
of these measures as they move forward.

    Mr. Pitts. The Chair thanks the gentleman. We will work 
with you, and I would like to seek unanimous consent at this 
time to enter six documents into the record. First, a letter 
from the National Association of Boards of Pharmacy; second, 
statement from the National Association of Chain Drug Stores; 
thirdly, a letter from the National Organization for Injury and 
Violence Prevention; fourthly, letter from the Infectious 
Diseases Society of America; fifth, letter from National 
Association for States United for Aging and Disabilities; and 
sixth, a letter from the Alliance to Prevent Abuse of 
Medicines. Without objection, so ordered. They will be entered 
into the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7804.064
    
    [GRAPHIC] [TIFF OMITTED] T7804.065
    
    [GRAPHIC] [TIFF OMITTED] T7804.066
    
    [GRAPHIC] [TIFF OMITTED] T7804.067
    
    [GRAPHIC] [TIFF OMITTED] T7804.068
    
    [GRAPHIC] [TIFF OMITTED] T7804.069
    
    [GRAPHIC] [TIFF OMITTED] T7804.070
    
    [GRAPHIC] [TIFF OMITTED] T7804.071
    
    [GRAPHIC] [TIFF OMITTED] T7804.072
    
    [GRAPHIC] [TIFF OMITTED] T7804.073
    
    [GRAPHIC] [TIFF OMITTED] T7804.074
    
    [GRAPHIC] [TIFF OMITTED] T7804.075
    
    [GRAPHIC] [TIFF OMITTED] T7804.076
    
    [GRAPHIC] [TIFF OMITTED] T7804.077
    
    [GRAPHIC] [TIFF OMITTED] T7804.078
    
    [GRAPHIC] [TIFF OMITTED] T7804.079
    
    [GRAPHIC] [TIFF OMITTED] T7804.080
    
    [GRAPHIC] [TIFF OMITTED] T7804.081
    
    Mr. Pitts. On our panel today we have introduce them at 
this time. Dr. Marsha Ford, president of the American 
Association of Poison Control Centers; Dr. Steven Stack, 
immediate past chair, Board of Trustees, American Medical 
Association; Dr. Drew Nagele, Board of Directors, Brain Injury 
Association of America; Dr. Edward McCabe, senior vice 
president, Chief Medical Officer of the Office of Medicine and 
Health Promotion, March of Dimes Foundation; Ms. Patricia 
Smith, president of the Lyme Disease Association; Ms. Laura 
Crandall, cofounder of Sudden Unexplained Death in Childhood 
Program; and finally, Mr. Robert MtJoy, CEO of Cornerstone 
Care.
    I thank each of you for coming. Your prepared testimonies, 
written testimony will be placed in the record. You will each 
have 5 minutes to summarize your testimony, and so at this 
time, the Chair recognizes Dr. Ford for 5 minutes for a summary 
of her opening statement.

 STATEMENTS OF MARSHA FORD, PRESIDENT, AMERICAN ASSOCIATION OF 
POISON CONTROL CENTERS; STEVEN J. STACK, IMMEDIATE PAST CHAIR, 
 BOARD OF TRUSTEES, AMERICAN MEDICAL ASSOCIATION; DREW NAGELE, 
BOARD OF DIRECTORS, BRAIN INJURY ASSOCIATION OF AMERICA; EDWARD 
 R.B. MCCABE, SENIOR VICE PRESIDENT AND CHIEF MEDICAL OFFICER, 
 MARCH OF DIMES FOUNDATION; PATRICIA V. SMITH, PRESIDENT, LYME 
 DISEASE ASSOCIATION, INC.; LAURA CRANDALL, PROGRAM DIRECTOR, 
   SUDDEN UNEXPLAINED DEATH IN CHILDHOOD PROGRAM; AND ROBERT 
     MTJOY, CHIEF EXECUTIVE OFFICER, CORNERSTONE CARE, INC.

                    STATEMENT OF MARSHA FORD

    Ms. Ford. Thank you. Chairman Pitts, Ranking Member 
Pallone, and members of the subcommittee, I appreciate the 
opportunity to testify today in support of the reauthorization 
of the National Poison Center Program entitled ``America's 
Poison Center Network Act.'' I am Dr. Marsha Ford, director of 
the Carolina's Poison Center In Charlotte, North Carolina and 
president of the American Association of Poison Control 
Centers, otherwise known as the AAPCC. The AAPCC is comprised 
of 56 regional poison centers that serve 100 percent of the 
population of the United States providing 24/7 real-time case 
triage and management advice for diverse multitude of poisoning 
problems.
    I am pleased to have join me today Kathy Jacobitz, who is 
director of the Nebraska Regional Poison Center in Omaha, 
Nebraska, and John Fiegel, the interim executive director of 
the AAPCC. And on behalf of all AAPCC member centers, I wish to 
express our appreciation to Mr. Terry and Mr. Engel and to the 
very talented health staff, including respectably, Nick 
Magallenes and Heidi Ross for their leadership in helping craft 
this bipartisan reauthorization legislation.
    The National Poison Center network legislation was first 
passed in Congress in 2000 and has been reauthorized twice. It 
is a highly successful truly public-private Federal, State, 
local partnership. It reduces unnecessary hospital visits, 
hospitalizations, and health care cost in our country by 1.8 
billion annually, according to the 2012 Lewin Group cost-
benefit study and as restated in HRSA's annual report to 
Congress earlier this year.
    The Poison Center Program is currently authorized through 
Public Law 110-377, the Poison Center Support, Enhancement, and 
Awareness Act of 2008. This program is legislatively mandated 
to do three things: Supply funding to support operations of 
poison centers, establish and maintain a single national toll-
free number, and implement a nationwide media campaign to 
educate the public and health care providers about poison 
prevention, poison center services, and the toll-free number. 
These three essential components comprise what is being 
requested for funding in this reauthorization bill.
    What key services do poison centers provide? I will briefly 
describe four: First, we provide assistance in triaging, 
diagnosing, and managing victims of a multitude of toxic 
exposures and public health emergency situations. We do this 
for the public, for health care providers, for emergency 
response personnel, and others. We do this for all people, 
including underserved and vulnerable populations. We do this 
for all ages and all types of problems. We do this for 
physicians and other health care providers who increasingly 
utilize poison centers for toxicological expertise. Emergency 
911 dispatchers refer poison-related calls to poison centers, 
often avoiding unnecessary EMS transports.
    Altogether, in 2012, the Nation's poison centers handled 
nearly 3.4 million cases and made 2.7 million follow-up calls 
to ascertain the status of the caller or the patient. And we do 
this at no cost to the caller.
    Poisoning is a major public health problem and is now the 
leading cause of injury death in the United States, having 
surpassed motor vehicular deaths. Poisonings are expensive. In 
2009, an estimated 4.4 billion was spent on health care for 
poisoned patients. Poison centers are an antidote for some of 
the spending. In 2011, use of the Nation's poison centers 
avoided an estimated 1.7 million unnecessary health care visits 
and decreased hospital lengths of stay for some patients.
    A second function of poison centers is the collection of 
poison exposure and disease surveillance data. Multiple Federal 
agencies use this data for surveillance to identify, 
characterize, and track public health threats. One example, 
early recognition of the toxicity of unit dose, laundry 
detergent packets in small children. In a great sense of 
timing, The Wall Street Journal had a front page article about 
this in yesterday's paper.
    Poison centers also provide case triage and management 
advice in specific public health events. Something I am very 
excited about, the AAPCC and its member centers are working 
with the CDC to design a coordinated national network that will 
provide telemedicine services during a severe influenza 
pandemic to triage cases and selectively provide anti-virile 
medications, thus reducing medical surge on health care 
facilities and allowing more appropriate use of these medical 
resources.
    Once created, this network may be capable of providing 
services during other public health emergencies.
    A third function, poison centers provide poisoning 
prevention education to the public and clinical education to 
health care providers.
    And finally, a fourth function, participation in emergency 
preparedness. The surveillance system that I mentioned earlier 
enables detection and monitoring of public health and 
environmental emergencies involving toxic exposures and 
pandemics. The value of poison centers has been demonstrated in 
national emergencies such as the Gulf Oil spill, the H1N1 
outbreak, and the Fukushima Nuclear Accident. Medical 
toxicologists from poison centers assist the Department of 
Homeland Security with risk assessment of chemical threats.
    Tens of millions of American families and tens of thousands 
of health care professionals have used poison centers services, 
experiencing firsthand the value of the Nation's poison center 
network.
    Thank you again for this opportunity to highlight the value 
and importance of the National Poison Center Program. The 
Nation's poison centers, your poison centers strongly support 
the proposed Terry-Engel reauthorization legislation of the 
poison center program that is before the subcommittee today. 
Thank you.
    Mr. Pitts. The Chair thanks the gentlelady.
    [The prepared statement of Ms. Ford follows:]

    [GRAPHIC] [TIFF OMITTED] T7804.082
    
    [GRAPHIC] [TIFF OMITTED] T7804.083
    
    [GRAPHIC] [TIFF OMITTED] T7804.084
    
    [GRAPHIC] [TIFF OMITTED] T7804.085
    
    [GRAPHIC] [TIFF OMITTED] T7804.086
    
    [GRAPHIC] [TIFF OMITTED] T7804.087
    
    [GRAPHIC] [TIFF OMITTED] T7804.088
    
    Mr. Pitts. I now recognize Dr. Stack, 5 minutes for an 
opening statement summary.


                  STATEMENT OF STEVEN J. STACK

    Mr. Stack. Thank you, Mr. Chairman. My name is Steven 
Stack, an emergency physician from Lexington, Kentucky, and the 
immediate past chairman of the board of trustees of the 
American Medical Association. To begin, thank you, Chairman 
Pitts, Ranking Member Pallone, and members for convening to 
examine public health legislation to help local communities. 
The AMA appreciates the opportunity to provide our views on 
H.R. 3528, the National All Schedules Prescription Electronic 
Reporting Reauthorization Act of 2013. Reauthorization and full 
appropriations for NASPER are urgently needed to ensure that 
physicians across our Nation have this critical tool to combat 
the scourge of prescription drug abuse while ensuring that 
patients in pain are relieved of their suffering.
    The personal and economic costs of prescription drug abuse 
far outweigh the annual appropriations of H.R. 3528. One study 
puts the potential overall cost of prescription drug abuse at 
more than $70 billion a year. The escalating cost of diverted 
prescription drugs to the overall health care system and the 
financial impact to the rest of the economy are enormous. The 
human cost and personal tragedies that could be averted with 
the help of NASPER are no less profound.
    Since 2005, the AMA, along with many other health care 
stakeholders, have supported NASPER as an essential resource to 
combat prescription drug abuse and diversion. Unfortunately, 
the appropriations to fully fund, modernize, and optimize 
NASPER prescription drug monitoring programs, or PDMPs have not 
kept pace with the escalation in abuse and diversion.
    Physicians struggle firsthand with this epidemic and fully 
understand the human cost and toll it takes on families and 
entire communities. It is a formidable challenge. We have an 
ethical obligation to treat patients with pain, and also to 
identify inappropriate drug seekers in order to prevent abuse, 
overdose, and death. This is not easy. In fact, it is often 
downright difficult. Physicians face many barriers in their 
efforts to maintain a balance.
    The AMA agrees with other impacted stakeholders that this 
problem requires a multi-pronged coordinated strategy. We 
support robust implementation of a combination of Federal and 
State policies to address both the supply and demand side of 
this epidemic. Modernized and fully interoperable PDMPs are a 
key component of these efforts. Though nearly a decade has 
passed since NASPER was enacted, the full promise has not been 
achieved.
    In theory, PDMPs were to provide reliable and actionable 
clinical information to physicians in State public health 
agencies. In reality, although $60 million was authorized over 
a 5-year period, it was not until 2009 that Federal funds were 
appropriated under NASPER to support the State adoption of 
PDMPs.
    H.R. 3528 is urgently needed now. The vast majority of 
physicians still don't have access to reliable real-time 
information about controlled substance prescriptions patients 
have obtained and filled from other prescribers. In fact, it is 
only in the past couple of years that most States have finally 
passed legislation establishing PDMPs. Even now, the majority 
of PDMPs still are not real-time, interoperable, or available 
at the point of care as a regular part of physician workflow. 
In far too many States, PDMPs remain underfunded, understaffed, 
and technologically inadequate. Recent years, a financial belt 
tightening within States has led to anemic funding, and in some 
cases, defunding of PDMPs, even as this public health scourge 
ravages our communities. We must do better.
    To be helpful, it is essential that PDMPs are easy to use 
and provide reliable information to guide sound clinical 
decisions. When prescription drug monitoring programs support 
clinical decision making, the efficacy is remarkable. As a 
pilot, Ohio placed PDMPs in emergency departments and found 
that 41 percent of prescribers, given reliable PDMP data, 
altered their prescribing decisions. Accurate PDMP data can 
directly inform sound clinical decisions, thereby reducing 
diversion and abuse, while still ensuring that patients receive 
the care they need.
    The AMA is committed to combating prescription drug abuse 
and diversion. Further, we believe a public health focus is 
essential to achieve to successful and sustainable solutions. 
By working together, we can and will resolve this crisis. The 
AMA appreciates the opportunity to provide our views on the 
essential role of modernized PDMPs. Action is needed now. I 
implore you to urgently reauthorize and fully fund NASPER. 
Thank you.
    [The prepared statement of Mr. Stack follows:]

    [GRAPHIC] [TIFF OMITTED] T7804.089
    
    [GRAPHIC] [TIFF OMITTED] T7804.090
    
    [GRAPHIC] [TIFF OMITTED] T7804.091
    
    [GRAPHIC] [TIFF OMITTED] T7804.092
    
    [GRAPHIC] [TIFF OMITTED] T7804.093
    
    Mr. Pitts. The Chair thanks the gentleman. Now recognizes 
Dr. Nagele for 5 minutes for an opening statement.


                    STATEMENT OF DREW NAGELE

    Mr. Nagele. Chairman Pitts, Ranking Member Pallone, and 
members----
    Mr. Pitts. Is your light on?
    Mr. Nagele. Yes.
    Mr. Pitts. Just make sure. OK. Pull it up.
    Mr. Nagele. And members of the Health Subcommittee, thank 
you for inviting me to testify on reauthorization of the 
Traumatic Brain Injury Act, H.R. 1098.
    My name is Dr. Drew Nagele. I am the executive director of 
Beechwood NeuroRehab, which serves clients from Pennsylvania, 
New Jersey, and Delaware. For over 30 years, I have worked with 
individuals who have brain injury and their families as a 
licensed psychologist. I serve on the board of the Brain Injury 
Association of America, and I am also testifying on behalf of 
the National Association of State Head Injury Administrators 
and the National Disability Rights Network.
    2.4 million Americans of all ages, races, and income levels 
sustain TBIs each year. The injury can change the way a person 
can think, move, talk, feel, and act, and can increase the risk 
for other brain-related diseases and disorders. The TBI Act is 
a comprehensive law combining research, data collection, 
prevention, public awareness, consumer advocacy, and service 
system coordination for this vulnerable and growing population. 
The law authorizes NIH to conduct basic and applied research, 
and for CDC to conduct surveillance, prevention, and public 
education programs. The Health Resources and Services 
Administration makes grants to States and territories to 
develop or expand service system capacity based on the specific 
needs in each State. Currently, 20 States and territories are 
receiving these grant funds.
    Many States work to strengthen screening and identification 
methods among unserved or underserved persons with brain 
injury. In Pennsylvania, we are screening prison inmates and 
connecting them to services and supports when they are released 
from prison. Minnesota has instituted a similar program, and 
Virginia is screening its juvenile justice inmates.
    Several States use grant funds for TBI-specific training 
and professional development. In New Jersey, State grant funds 
were used to train members of the clergy. Grants allow States 
to coordinate and streamline TBI service systems. In 
Pennsylvania and Tennessee, we have linked hospitals and 
schools, and in Alabama we have improved Federal mechanisms for 
accessing existing services.
    Additional State grants have helped leverage resources in 
other Federal and State programs and nonprofit organizations. 
Michigan and West Virginia evaluated Medicaid utilization and 
then applied for home and community-based waivers that are 
tailored to the needs of individuals with brain injury and are 
more cost-effective for the State. By far, the most common use 
of State grants is assisting persons with brain injury and 
their families through outreach, information, education, 
service coordination, and resource facilitation.
    Arizona, Colorado, Idaho, Iowa, Indiana, Massachusetts, 
Michigan, Missouri, Nebraska, New York, Virginia, West 
Virginia, and Texas have all used TBI Act grants to outreach to 
children and youth, active duty military and veterans, Native 
Americans, older adults, multi-cultural families, and the 
thousands of civilians who fall through the cracks each year. 
The TBI Act also authorizes formula-funded grants to protection 
and advocacy organizations to ensure that people with TBI live 
full and independent lives. Known as PATBI, this programs helps 
people navigate complex service systems and investigates 
instances of abuse and neglect.
    Recently, the Disability Rights Network of Pennsylvania 
represented a client who has a TBI as a result of domestic 
violence and was being denied appropriate services by her 
service coordinator. Our P&A helped her change to a new service 
coordinator, and now she is getting the services she needs.
    In this reauthorization, BIAA, NASHIA, and NRDN all 
recommend the State grant program and the PATBI program be 
elevated within the Department of Health and Human Services, 
preferably the Administration for Community Living, to better 
integrate individuals with brain injury into HHS' aging and 
disability initiatives.
    Now, more than ever, it is imperative that we foster 
collaboration and maximize the limited resources at both the 
State and Federal levels. This can only be achieved if we work 
hand-in-hand with other aging and disability populations. The 
TBI stakeholders believe elevating the program to ACL is the 
best way to increase effectiveness and cost efficiency. Thank 
you.
    [The prepared statement of Mr. Nagele follows:]

    [GRAPHIC] [TIFF OMITTED] T7804.094
    
    [GRAPHIC] [TIFF OMITTED] T7804.095
    
    [GRAPHIC] [TIFF OMITTED] T7804.096
    
    Mr. Pitts. The Chair thanks the gentleman. Now recognizes 
Dr. McCabe, 5 minutes for an opening statement.


                STATEMENT OF EDWARD R.B. MCCABE

    Mr. McCabe. Good afternoon, Chairman Pitts, Ranking Member 
Pallone, and members----
    Mr. Pitts. Is your mic on? There you go.
    Mr. McCabe. Good afternoon. And thank you. My name is Dr. 
Edward McCabe, and I am senior vice president and chief medical 
officer for the March of Dimes Foundation, a unique partnership 
of scientists, clinicians, parents, and volunteers working to 
prevent birth detects, preterm birth, and infant mortality. I 
appreciate this opportunity to testify today on newborn 
screening, one of the great public health victories of the 20th 
Century and one which continues to save infants lives every 
day. Newborn screening is a critically important and highly 
effective public health program for testing every newborn for 
certain genetic, metabolic, hormonal, and functional conditions 
not authorize apparent at birth.
    Approximately one in every 300 newborns has a condition 
that can be detected through screening. Newborn screening 
detects conditions that, if left untreated, can cause 
disability, developmental delay, illness, and even death. If 
diagnosed early, many of these disorders can be managed 
successfully, which not only reduces the physical burden of 
disease but can also help to reduce the associated economic 
burden on families, communities, and the government.
    This year, our Nation is celebrating the 50th Anniversary 
of newborn screening. The March of Dimes is deeply proud of our 
decades' long history of funding research that has led or 
contributed to the development of numerous newborn screening 
tests. Together, these tests have allowed us to preserve the 
health and wellbeing of thousands of children.
    The remarkable progress of newborn screening over the past 
2 decades persuaded Congress to pass a Newborn Screening Saves 
Lives Act in 2008. The law renewed and updated various programs 
that underpin States' newborn screening efforts as well as the 
Secretary's Advisory Committee on Heritable Disorders. That law 
expired at the end of fiscal year 2013 and is due for a 5-year 
renewal. Passage of the Newborn Screening Saves Lives 
Reauthorization Act is essential to the continued success of 
newborn screening programs across our Nation.
    Most importantly, reauthorization will ensure the 
uninterrupted continuation of the Secretary's Advisory 
Committee on Heritable Disorders and its work. Maintaining and 
updating the recommended uniform screening panel that States 
use to adopt and implement new conditions is vital and ongoing 
and planned evidence review should not be delayed. The Newborn 
Screening Saves Lives Reauthorization Act also extends 
important programs at HRSA, CDC, and NIH, including Seven 
Genetics and Newborn Screening Regional Collaborative Groups 
and the National Coordinating Center, which improves the 
availability, accountability, and quality of genetic services 
and resources for individuals with genetic conditions; the 
Critical Congenital Heart Disease Newborn Screening 
Demonstration product program, a program to support the 
development, dissemination, and validation of screening 
protocols and newborn screening infrastructure for point-of-
care screening specific to congenital heart defects; Babies 
First Test, a national educational resource center for newborn 
screening, the Newborn Screening Technical Assistance and 
Evaluation Program, or NewSTEPs, which serves as a technical 
assistant program for State newborn screening systems; the 
Newborn Screening Quality Assurance Program, a comprehensive 
CDC program devoted to ensuring the accuracy of newborn 
screening; and the Hunter Kelly Research Program at the NIH, 
which supports grants and contracts to develop and improve 
technologies related to newborn screening.
    Today, 42 States and the District of Columbia require 
screening for at least 29 of the 31 treatable core conditions. 
Millions of babies have been screened for dozens of disorders, 
and in thousands of cases, the health and well-being of those 
children has been preserved. Newborn screening represents a 
model Federal-State public health partnership that has produced 
extraordinary improvements in child health.
    We must not allow this vital public health effort to 
falter. On behalf of over 3 million March of Dimes volunteers 
and countless other organizations and families, I urge the 
members of this subcommittee to cosponsor and support H.R. 
1281, the Newborn Screening Saves Lives Act, and the committee 
to report the legislation this fall. We look forward to working 
closely with the committee and chamber leadership to ensure it 
can be passed as soon as possible by both the House and the 
Senate.
    Thank you for your attention to this vitally important 
child health issue. The March of Dimes stands ready to assist 
you in ensuring that newborn screening programs will continue 
to protect the health and well-being of newborns for many years 
to come. Thank you.
    Mr. Pitts. The Chair thanks the gentleman.
    [The statement of Mr. McCabe follows:]

    [GRAPHIC] [TIFF OMITTED] T7804.097
    
    [GRAPHIC] [TIFF OMITTED] T7804.098
    
    [GRAPHIC] [TIFF OMITTED] T7804.099
    
    [GRAPHIC] [TIFF OMITTED] T7804.100
    
    [GRAPHIC] [TIFF OMITTED] T7804.101
    
    [GRAPHIC] [TIFF OMITTED] T7804.102
    
    Mr. Pitts. Now recognize Ms. Smith, 5 minutes for an 
opening statement.


                 STATEMENT OF PATRICIA V. SMITH

    Ms. Smith. Thank you, Mr. Chairman and committee members. I 
appreciate the opportunity to testify on the establishment of 
Lyme and Tick-Borne Diseases Advisory Committee. In 2009, the 
CDC indicated that Lyme surpassed HIV in incidents, and that 
was followed by a 2013 announcement confirming a 10-fold 
underreporting of Lyme cases, estimating 300,000 Lyme cases 
annually. A 2001 NIH-sponsored study found the impact of Lyme 
on physical health status was at least equal to the disability 
of patients with congestive heart failure or osteoarthritis 
and, was greater than those with type II diabetes or recent 
myocardial infarction. If you couple those facts with Lyme 
spreading worldwide now to 80 countries and the discovery of 
many new emerging tick-borne pathogens carried by many 
different ticks, then the passage of H.R. 610 is long overdue.
    Other tick-borne diseases in the U.S. include anaplasmosis, 
babesiosis, bartonellosis, ehrlichiosis, Rocky Mountain Spotted 
fever, Colorado tick fever, Q fever, tick paralysis, tularemia, 
Powassan encephalitis, STARI, which is a Lyme-like disease 
carried by a different tick, Rickettsia parkeri--parkeri, 
excuse me, Ricketsiosis found increasingly along the Gulf Coast 
and in the South, Borrelia miyamotoi, which was an organism 
that produced disease in Russia, the first cases, and now it 
has been found here, and Eschar-associated illness, Ricketsia 
species 364D in the Pacific region, and a newly-discovered 
tick-borne virus in Missouri called Heartland.
    So, my education on Lyme began almost 30 years ago as a New 
Jersey Board of Education member whose district had a large 
number of students and staff out with the disease. At that 
time, only a few ticks were recognized as major health threats 
to humans. Now the list includes Ixodes scapularis, which is 
the deer or black-legged tick you probably know, Amblyomma 
americanum, the lone start tick, Dermacentor variabilis, the 
American dog tick, Dermacentor andersoni, the Rocky Mountain 
wood tick, Ixodes pacificus, which is the western black-legged 
tick, Amblyomma maculatum, the Gulf Coast tick, and Dermacentor 
occidentalis, the Pacific Coast tick.
    Now, one tick bite can produce more that one disease at the 
same time. My Lyme work, including 17-plus years as president 
of the volunteer-run national nonprofit Lyme Disease 
Association keeps me in close contact with patients nationwide. 
Lyme's complexity and difficulty in diagnosis have exacerbated 
the plight of patients and their families, many of which 
contain more than one Lyme victim. Medical bills rise, jobs are 
lost, education is interrupted. Children are at the highest 
risk of acquiring Lyme, and based on CDC's Lyme reported case 
numbers from 2001 to 2010 by age, the LDA estimates 37 percent 
of reported cases were children. So, if you use 1990 through 
2011 CDC reported numbers and you adjust that for the 10-fold 
underreporting, we then found that 1,599,000--excuse me, 
1,590,499 children have developed Lyme over that time period, 
and unfortunately, there are probably more children that were 
diagnosed, but they weren't included in that CDC surveillance 
figure because that is a very narrow surveillance criteria not 
meant for clinical diagnosis.
    A 2001 Columbia study showed children with Lyme had 
significantly more psychiatric disturbances and cognitive 
deficits, even after they were controlled for anxiety, 
depreciation, and fatigue. So Lyme in children may be 
accompanied by long-term neuropsychiatric disturbances 
resulting in psycho, social, and academic impairment. Parents 
indicated 41 percent of children had suicidal thoughts. 11 
percent had made a suicide gesture.
    Early intervention and appropriate treatment are the 
answers for Lyme patients to prevent development of chronic 
disease, also known as Post Treatment Lyme Disease, late 
disseminated Lyme disease, persistent Lyme, Post Lyme Disease 
Syndrome, et cetera. The discussions continue on the 
justification for various terms for chronic Lyme, but we can't 
allow semantics to eclipse the need for research on chronic 
Lyme, the area producing the most human suffering, but yet it 
is receiving the least research funding.
    According to a new Columbia study, based upon the 10-fold 
underreporting and 10 percent of newly infected and treated 
patients developing symptoms, which persist for more than 6 
months, the actual incidents of new chronic Lyme cases, which 
they call Post Treatment Lyme Syndrome, is 30,000 annually for 
chronic Lyme development.
    Many major health threats, including chronic fatigue, have 
an advisory committee. Lyme doesn't, placing patients and 
advocates at a great disadvantage. We have lobbied for a 
research agenda, which includes more effective treatments that 
are diagnostic, including detection of active infection. 
Borellia Burgdorferi was recognized to cause Lyme almost 33 
years ago, yet the two-tier testing system endorsed by CDC, 
though it is very specific for Lyme, 99 percent and gives few 
false positives, the tests have a uniform low sensitivity, 56 
percent, meaning 88 out of 200 patients with Lyme are missed.
    Mr. Pitts. Summarize, please.
    Ms. Smith. Excuse me?
    Mr. Pitts. Your time has expired. Could you summarize?
    Ms. Smith. Oh, I am sorry. I was so busy, I didn't realize. 
I am sorry, Mr. Chairman. Thank you.
    Mr. Pitts. Thank you.
    [The prepared statement of Ms. Smith follows:]

    [GRAPHIC] [TIFF OMITTED] T7804.103
    
    [GRAPHIC] [TIFF OMITTED] T7804.104
    
    [GRAPHIC] [TIFF OMITTED] T7804.105
    
    [GRAPHIC] [TIFF OMITTED] T7804.106
    
    [GRAPHIC] [TIFF OMITTED] T7804.107
    
    [GRAPHIC] [TIFF OMITTED] T7804.108
    
    [GRAPHIC] [TIFF OMITTED] T7804.109
    
    [GRAPHIC] [TIFF OMITTED] T7804.110
    
    Mr. Pitts. The Chair now recognizes Ms. Crandall for 5 
minutes for opening statement.


                  STATEMENT OF LAURA CRANDALL

    Ms. Crandall. Good afternoon. Thank you. I am very grateful 
to have this opportunity to speak with you regarding the Sudden 
Unexpected Death Data Enhancement and Awareness Act. The 
problems that the bill seeks to address were first made known 
to me through a very personal experience. I recall July 30th, 
1997 as a beautiful, beautiful gorgeous summer day as I sat out 
on our front steps waiting to awaken my daughter Maria from her 
nap. She had her 15-month checkup scheduled for later that 
morning, but I went to--when I went to wake her in her crib, I 
found Maria not breathing and blue. I called 911 on speaker 
phone, I started CPR, and even though the police arrived 
immediately and care was intervened immediately, she was 
transported to the hospital, heroic efforts. Maria could not be 
revived. A thriving, happy, walking, talking, beautiful little 
girl had died. We returned home from the hospital to find the 
police waiting for us with lots of questions and needing to 
investigate our home.
    A medical investigator from the ME's office called and came 
over the next morning to take pictures and ask many more 
questions and asked me to replay the most horrific moment of my 
life, how I found my daughter. Over the next few days, it was 
all we could do to plan her funeral and try to keep ourselves 
going on. I had no idea that during those same days that the 
investigation of Maria's death was the most crucial. I did not 
know that what was and what was not done at that time would 
have such a lasting impact on myself and the rest of my family. 
It is not like TV. Nothing happens quickly, and questions don't 
get answered in an hour, if they ever do at all.
    Two long years later, her investigation was concluded and a 
cause for her death was never found. So I am left with the 
understanding that her true cause of death was buried with her, 
and that is a tragedy of missed opportunities that I live with. 
I do not want to see this happen for other families in the 
future.
    Sadly, my story is not unique. There are many bereaved 
families who could sit in this chair and tell you the same 
story of tragedy, inexplicable loss, and missed chances. In 
2010 alone, over 3,600 infants and nearly 200 toddlers died 
suddenly and without explanation, and in over 26,000 babies 
were lost to stillbirth. H.R. 669 efficiently addresses the 
core problems present in our country today to allow us to 
improve the collection of comprehensive and standardized 
information to better understand these presently inexplicable 
deaths.
    Regarding stillbirths. Nearly half of the 26,000 are 
unexplained. Its surveillance is very limited when utilizing 
fetal death records, which are often incomplete and 
insufficient. However, a CDC-funded effort to gather richer 
data through some existing State birth defects surveillance 
programs have shown success. Education of health care providers 
and expectant families is also limited and needed to teach the 
importance of known prenatal health initiatives.
    In regards to infant and childhood deaths, coroner and 
medical examiner offices have the authority in our country to 
investigate all unexplained, unexpected, and suspicious deaths, 
and therefore, the infant and child deaths that we discussed 
today fall under their purview. In this regard, it is very 
important to recognize that the death investigation systems in 
our country vary immensely from State to State and often from 
county to county. Therefore, the investigations that parents 
encounter are directly tied to where they live and the 
resources and the policies which their local medical examiner 
or coroner officer utilizes.
    The tracking of sudden unexpected infant death rates showed 
a significant drop in the early 1990s with the initiation of 
NICHD successful back-to-sleep campaign. Unfortunately, we have 
not seen any additional progress in lowering those rates 
further. As shown in the CDC graph I submitted in my written 
testimony on page 8, I believe, our progress as a country has 
seen a plateau for more than a decade, and if we are committed 
to see a change and prevent more of these deaths in the future, 
we must make a change in our process.
    The medical legal death investigation of these cases needs 
to be standardized, they need to be resourced, and the 
resultant data centralized and specifically studied. The Sudden 
Unexpected Death Data Enhancement and Awareness Act addresses 
these critical limitations in order to provide answers to 
families as well as our Nation overall.
    Specifically, it would improve the effectiveness of current 
activities of the CDC by removing the obstacles that impede 
their success today. This will be achieved by improving the 
surveillance of stillbirth by expanding on current programs, 
improving the surveillance of infant and child deaths by 
supporting comprehensive investigations, supporting evidence 
based public awareness campaigns and providing relief to 
families.
    Thank you for allowing me to provide my views on this 
important legislation, and on behalf of all the children gone 
too soon, my Maria being one of very many, thank you forgiving 
them a voice. I know they would want us to know what happened 
to them and help create a future free of tragedies for others.
    [The prepared statement of Ms. Crandall follows:]

    [GRAPHIC] [TIFF OMITTED] T7804.111
    
    [GRAPHIC] [TIFF OMITTED] T7804.112
    
    [GRAPHIC] [TIFF OMITTED] T7804.113
    
    [GRAPHIC] [TIFF OMITTED] T7804.114
    
    [GRAPHIC] [TIFF OMITTED] T7804.115
    
    [GRAPHIC] [TIFF OMITTED] T7804.116
    
    [GRAPHIC] [TIFF OMITTED] T7804.117
    
    [GRAPHIC] [TIFF OMITTED] T7804.118
    
    [GRAPHIC] [TIFF OMITTED] T7804.119
    
    [GRAPHIC] [TIFF OMITTED] T7804.120
    
    [GRAPHIC] [TIFF OMITTED] T7804.121
    
    [GRAPHIC] [TIFF OMITTED] T7804.122
    
    [GRAPHIC] [TIFF OMITTED] T7804.123
    
    Mr. Pitts. Thank you. Thank you very much for your 
testimony. Mr. MtJoy, you are recognized for 5 minutes for your 
opening statement.


                   STATEMENT OF ROBERT MTJOY

    Mr. MtJoy. Chairman Pitts, Ranking Member Pallone, and 
distinguished members of the----
    Mr. Pitts. Pull your mike a little closer if you could, 
yes.
    Mr. MtJoy. My name is Robert MtJoy, and I am chief 
executive officer----
    Mr. Pitts. Is it on? Is the red light on?
    Mr. MtJoy. It is on now.
    Mr. Pitts. OK. Good.
    Mr. MtJoy. My name is Robert MtJoy. I am chief executive 
officer of Cornerstone Care. On behalf of the 23,000 patients 
that we serve, our 186 employees, the entire health center 
community, including more than 22 million patients nationwide 
served by health centers, I want to thank you for this 
opportunity to testify today regarding the Family Health Care 
Accessibility Act of 2013 and for this subcommittee's strong 
support of health centers for many years.
    In particular, I want to thank Congressman Murphy for 
introducing this important legislation that would benefit 
health centers and their patients across the country by 
extending the Federal Tort Claims Act medical malpractice 
coverage to licensed health care professionals who volunteer 
their services at health centers.
    Health centers are community-owned, nonprofit entities 
providing primary medical, dental, and behavioral health care. 
By statute and mission, health centers are located in medically 
underserved areas or serve medically underserved populations. 
Health centers are also directed by patient-majority boards, 
ensuring care is locally controlled and responsive to each 
individual community's needs. Health centers provide primary 
care to all residents of their communities, regardless of their 
ability to pay or insurance status and offer services on a 
sliding fee scale.
    To date, there are over 1,200 health centers located across 
the Nation at more than 9,000 urban and rural health locations. 
Without their local health center, these communities and 
patients would often be without any access to primary care. 
Health centers have a demonstrated track record of improving 
the health and wellbeing of their patients, while at the same 
time, reducing unnecessary avoidable and wasteful use of health 
resources. Health centers reduce preventable hospitalizations, 
emergency department use, as well as the need for more 
expensive specialty care.
    Cornerstone Care was formed as a direct result of citizens 
who organized a board of directors and raised funds in 1978 to 
provide health care where before none had existed. The first 
doctors joined the organization in 1981. Dental care, soon 
after, in a small church building in a neighboring community. 
Thirty-five years later, Cornerstone Care provides a full range 
of primary and preventive health care services in Greene, 
Washington, and Fayette counties in southwestern Pennsylvania 
through its eight facilities, a mobile unit, and a teaching 
health center.
    Regarding the bill of interest to the committee today, by 
way of background, in 1993, Congress extended the Federal Tort 
Claims Act coverage to health center grantees by deeming them 
Federal employees for the purposes of medical malpractice 
coverage. The extension of the FTCA to health centers have 
resulted in significant savings for health centers, savings 
that have been used to expand access to care for millions of 
patients.
    There are health care professionals who want to assist 
health centers in serving their communities and addressing this 
unmet need by volunteering their services. However, the high 
cost of medical liability insurance often provides to be too 
burdensome for the provider and the health center, preventing 
these volunteers from doing so.
    While health centers are engaged in many workforce 
development initiatives, one immediate solution to alleviate 
this workforce shortage is the use of volunteer providers. By 
extending FTCA coverage to include volunteer providers, there 
will be more providers available to meet the needs of millions 
of patients who still lack care.
    Recruitment and retention of health care providers is one 
of the greatest challenges I have. And unfortunately, the 
looming critical shortage of primary care physicians will be 
more profoundly felt in rural areas like mine. We have got an 
aging physician population getting ready to retire, and this 
bill allows us to take advantage of this valuable resource.
    Mr. Chairman, there is significant unmet needs in our 
communities that health centers could address. The Family 
Health Care Accessibility Act is vital to the effort of 
addressing the Nation's primary care shortage. I would be 
remiss if I also forgot to mention two other vital programs 
that support the goal of creating medical homes for underserved 
Americans: The National Service Corps and the Teaching Health 
Centers Graduate Medical Education Program. These programs play 
important roles in addressing primary care workforce shortages 
and most--and both must be authorized soon if they are to 
continue.
    We look forward to working with you and other members of 
this subcommittee to improve access to primary care and reduce 
the overall health care costs in our community and across the 
country.
    [The prepared statement of Mr. MtJoy follows:]

    [GRAPHIC] [TIFF OMITTED] T7804.124
    
    [GRAPHIC] [TIFF OMITTED] T7804.125
    
    [GRAPHIC] [TIFF OMITTED] T7804.126
    
    [GRAPHIC] [TIFF OMITTED] T7804.127
    
    [GRAPHIC] [TIFF OMITTED] T7804.128
    
    [GRAPHIC] [TIFF OMITTED] T7804.129
    
    Mr. Pitts. The Chair thanks the gentleman. That concludes 
the opening summaries of our witnesses. We will now begin 
questioning by the members. I will recognize myself 5 minutes 
for that purpose.
    Dr. Nagele, since you are from Pennsylvania, can you 
describe for us how the Federal TBI State Grant Program 
impacted the State of Pennsylvania and its TBI population?
    Mr. Nagele. Yes. In Pennsylvania, we have had a HRSA grant 
for many years now, and one of the functions that we have used 
it for is training and education. We have trained many 
different types of people on what brain injury is and how to 
help people with brain injury to access brain injury services 
which are available. We had started training mental health 
workers and prison personnel, and the work that we did with the 
prison personnel have actually led us to another grant 
opportunity with the Pennsylvania Commission on Crime and 
Delinquency, and so the initial TBI Act funds helped us to 
leverage and get another grant where we are actually in the 
prisons now doing screening of inmates who are about to be 
released, and for those who are determined to have a brain 
injury, which is about 70 percent in our early----
    Mr. Pitts. 70 percent?
    Mr. Nagele. 7-0 percent, yes.
    Mr. Pitts. What is the predominant reason for all the brain 
injuries?
    Mr. Nagele. Mostof them are mild repeated brain injuries 
that have never been diagnosed. So these inmates are not 
thinking of themselves as having had a brain injury. They are 
just thinking they got in a fight or they were in a car wreck 
or they were in a fall. They were never treated for these 
injuries, and as we are learning from the NFL studies, repeated 
mild brain injury can lead to much more serious problems in 
later life, and so these prisoners have had brain injury, but 
it has never been diagnosed, and our current work is to connect 
them with brain injury services when they leave the prisons so 
that they have every chance of success in the community and 
they don't end up back in prison.
    Mr. Pitts. Thank you.
    Ms. Crandall, I found your testimony very moving. H.R. 669 
calls for the improvement of death scene investigations in the 
case of sudden unexplained death in childhood, including the 
collection of medical information, description of the sleep 
position, environmental factors. Would collecting this 
information significantly lengthen the time it takes to 
complete the current investigation?
    Ms. Crandall. No. And the guidelines currently exist for 
scene investigation through the CDC, were first created in the 
mid 1990s and then revised in 2005, I believe. Those guidelines 
are out there, but they are not universally utilized for 
infants, and that information is very helpful to the 
pathologist prior to them performing the autopsy, so they know 
what may be a concern and whatnot. So those guidelines are out 
there right now. Those are ideally captured within, on the day 
of the death, when the death investigator goes to the place 
where the infant or child died and interviews the caregivers 
and collects that important data. So, it would not increase the 
length of time.
    Mr. Pitts. Do you know if local police or other law 
enforcement authority support these changes?
    Ms. Crandall. I believe in the last legislative session, I 
know that the--there was a National Sheriffs Association, I 
believe, that endorsed the bill. In general, again, death 
investigations vary so greatly. In some areas, local law 
enforcement are the deathinvestigators, and in other areas, 
they are medical legal death investigators from the medical 
examiner's office or coroner's office doing an investigation in 
parallel, so it varies from jurisdiction to jurisdiction on how 
these would be carried out, but the information from law 
enforcement is very helpful to them in terms of giving them a 
guidebook of what to follow.
    As you can imagine, these are emotionally and very chaotic 
scenes. It is very difficult. It is some of the most difficult 
investigations that death investigators say they need to 
respond to as well as law enforcement because the scene is 
completely disturbed by the time they get there. So, their 
ability to effectively interview a distraught parent, to get 
that accurate information of what really happened really takes 
an important skill set, and that is why the training for these 
death investigators is so important. It is really a unique 
highly skilled ability that they need to have to be able to 
collect this information and do it in the most compassionate 
way for the families.
    Mr. Pitts. Thank you.
    Ms. Smith, one of our colleagues, who does not serve on the 
Energy and Commerce Committee, Chris Gibson from New York's 
19th District, has been a tireless advocate for his 
constituents on the issue of Lyme disease, and he has submitted 
a question that he would like me to ask on his behalf.
    Ms. Smith, you mentioned the concentration of existing 
research dollars and the lack of diversity and coordination in 
Lyme research, and this was a helpful analysis. Can you 
identify any areas of progress first, and what has worked and 
been helpful and what has not?
    Ms. Smith. I am sorry. I have a little bit of hearing 
impairment. Could you just repeat the last portion of that 
question?
    Mr. Pitts. Yes. What has worked and has been helpful and 
what has not worked or been helpful?
    Ms. Smith. I am sorry, in regards to?
    Mr. Pitts. As far as areas of progress----
    Ms. Smith. Oh, OK. I am sorry.
    Mr. Pitts [continuing]. In your analysis.
    Ms. Smith. OK. So as far as areas of progress, I think what 
has been helpful is in recent times that I think there has been 
more agency interest and more agency coordination in focusing 
on the amount of disease across the country. And so I think 
that because of that, the amount and the diversity of the 
disease, I mentioned the number of tick-borne diseases that are 
being transmitted, and so on and so forth, I think that that 
has all come into play to begin to focus research, not just on 
Lyme disease, but on other tick-borne diseases. How do patients 
react if they have more than one disease? You know, how are 
they able to diagnose? Because many of them don't have tests to 
diagnose, unfortunately, with, they don't have particular 
treatments for certain viral diseases.
    And so I think the fact that now that the information is 
being more freely shared about these tick-borne diseases and it 
is coming in from a lot of university studies that are being 
done, not just in the United States, but throughout the world, 
I think that has been extremely useful.
    Mr. Pitts. Thank you. My time has expired. I am sorry to go 
over.
    Mr. Pallone, you are recognized 5 minutes for questions.
    Mr. Pallone. Mr. Chairman, I wanted to submit for the 
record endorsement letters from 24 organizations. This is with 
regard to the H.R. 669.
    Mr. Pitts. Without objection, so ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7804.130
    
    [GRAPHIC] [TIFF OMITTED] T7804.131
    
    [GRAPHIC] [TIFF OMITTED] T7804.132
    
    [GRAPHIC] [TIFF OMITTED] T7804.133
    
    [GRAPHIC] [TIFF OMITTED] T7804.134
    
    [GRAPHIC] [TIFF OMITTED] T7804.135
    
    [GRAPHIC] [TIFF OMITTED] T7804.136
    
    [GRAPHIC] [TIFF OMITTED] T7804.137
    
    [GRAPHIC] [TIFF OMITTED] T7804.138
    
    [GRAPHIC] [TIFF OMITTED] T7804.139
    
    [GRAPHIC] [TIFF OMITTED] T7804.140
    
    [GRAPHIC] [TIFF OMITTED] T7804.141
    
    [GRAPHIC] [TIFF OMITTED] T7804.142
    
    [GRAPHIC] [TIFF OMITTED] T7804.143
    
    [GRAPHIC] [TIFF OMITTED] T7804.144
    
    [GRAPHIC] [TIFF OMITTED] T7804.145
    
    [GRAPHIC] [TIFF OMITTED] T7804.146
    
    [GRAPHIC] [TIFF OMITTED] T7804.147
    
    [GRAPHIC] [TIFF OMITTED] T7804.148
    
    [GRAPHIC] [TIFF OMITTED] T7804.149
    
    [GRAPHIC] [TIFF OMITTED] T7804.150
    
    [GRAPHIC] [TIFF OMITTED] T7804.151
    
    [GRAPHIC] [TIFF OMITTED] T7804.152
    
    [GRAPHIC] [TIFF OMITTED] T7804.153
    
    [GRAPHIC] [TIFF OMITTED] T7804.154
    
    [GRAPHIC] [TIFF OMITTED] T7804.155
    
    [GRAPHIC] [TIFF OMITTED] T7804.156
    
    Mr. Pallone. And I wanted to mention that--because you 
mentioned law enforcement and, you know, their support for the 
bill--and I just wanted to mention that 3 of those in the 24, 
the National Association of Medical Examiners, the 
International Association of Coroners and Medical Examiners, 
and the Society of Medicolegal Death Investigators, are, you 
know, enforcement, just for your information.
    But before I get to questions, Mr. Chairman, I wanted to 
address both you and the subcommittee for a moment. I just 
wanted to be sure to express my disappointment that the 
subcommittee didn't give the administration enough time to be 
here today to have input on these seven public health bills. As 
you know, many of the bills cross a number of agencies at HHS, 
and it is critical that they are able to give us their 
expertise on these proposals.
    So I was going to ask if you could commit to me that we 
will arrange for some way to have the administration's 
technical views be heard by our staff and members.
    Mr. Pitts. I am informed that we are in the process of 
getting technical information from the administration.
    Mr. Pallone. All right. And then, Mr. Chairman, I also 
wanted to enter into the record a statement by Congressman Bill 
Pascrell with regard to his bill, the Traumatic Brain Injury 
Reauthorization Act.
    Mr. Pitts. Without objection, so ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7804.157
    
    [GRAPHIC] [TIFF OMITTED] T7804.158
    
    Mr. Pallone. Thank you, Mr. Chairman.
    Let me see, I wanted to start with Ms. Crandall. I don't 
know if I can get through all these, but I am going to try.
    I wanted to thank you again for being here and, you know, 
sharing the heartwrenching story about the loss of your 
daughter Maria. And in your testimony, you also shared some 
sobering statistics that over 3,600 infants and 200 toddlers 
die suddenly each year. You noted that 26,000 women experience 
stillbirth. Clearly we need to do something to address this.
    The Sudden Unexpected Death Data Enhancement Awareness Act 
that I sponsor contains provisions that will build upon the 
current CDC activities and ultimately help prevent these deaths 
from occurring. And I am sure I don't have to tell you that we 
are in a difficult fiscal climate. As much as I would like to 
advance all the provisions in H.R. 669, I recognize that that 
may not be feasible. So I just wanted to ask you, in light of 
these constraints, what do you believe are the most important 
areas or provisions for us to address?
    Ms. Crandall. I strongly feel that the most important areas 
are the comprehensive investigations that would then allow for 
effective surveillance and then public awareness and 
intervention strategies. I think if we don't fix the issue of 
these cases initially being investigated thoroughly, we will 
never have the good data that will then later on help public 
health and research, and as well as these families on an 
individual basis. But there are many efforts going on right now 
that have huge obstacles in front of them because they are 
dealing with broken data. I think we need to go back and 
prioritize the investigations.
    Mr. Pallone. All right. Thank you so much really again for 
your testimony and all your support in getting this moved.
    Dr. Nagele, if I could ask you, in your testimony you 
discussed movement of State TBI and protection and advocacy 
programs currently administered by the Health Resources and 
Service Administration to the Administration for Community 
Living, and you noted this would help foster greater 
collaboration between TBI and aging and disability programs.
    You also cited some additional benefits of a potential 
reorganization. For example, you mentioned greater 
collaboration on TBIs among older adults resulting from falls.
    Can you elaborate on how movement of TBI programs to ACL 
will be beneficial for individuals with TBI and their families?
    Mr. Nagele. Yes. We believe that elevation to the ACL will 
help people across the age span to better recognize the effects 
of brain injury and to coordinate with the many services that 
sit within ACL, within intellectual disabilities and with 
aging, and that this opportunity will actually give more 
ability to leverage with other existing programs.
    Mr. Pallone. All right. Thank you.
    I think I am going to get in all three questions.
    Mr. Stack. Dr. Stack, you know, I have been involved with 
NASPER for a long time with Mr. Whitfield. It is clear from 
your testimony that NASPER and other prescription drug 
monitoring programs, or PDMPs, are an important tool in helping 
to address the problem of nonmedical use of prescription drugs.
    As you know, State PDMPs collect, monitor, and analyze 
information on scheduled or controlled prescription drugs. You 
noted PDMPs provide valuable info for physicians, pharmacists, 
and other health providers to support appropriate prescribing 
and treatment for pain management. And you also mentioned the 
importance of NASPER's public health focus.
    So if I could ask you, why do you believe the public health 
focus of NASPER is so important, and how does that differ from 
the emphasis of other monitoring programs?
    Mr. Stack. Well, I would say there is a difficult balance 
between two different issues here. One is treating patients who 
have pain. And the Institute of Medicine estimates there are as 
many as 100 million Americans who live with chronic daily pain 
that is inadequately treated. And then the difficulty of an 
epidemic, and I think we would all agree it is an epidemic, of 
prescription drug abuse and the horrible damage and devastation 
that causes.
    So it is a public health magnitude kind of problem, because 
we have to address competing needs in society, the treatment 
for one, which has grave consequences when misapplied or 
misused for other folks.
    We would suggest that it is a public health as opposed to 
principally a public justice issue or a legal issue, because 
these are our fellow men and women and children who require 
treatment and care for various problems and maladies. And we 
believe very strongly that it is a health-related issue, that 
if we attend to that particular concern and work together as a 
society, we will get far further in helping our fellow men and 
women than incarcerating them all and pursuing them through the 
justice system. So we can't emphasize strongly enough that we 
believe the health-based approach is the proper approach.
    Mr. Pallone. And I appreciate that. That is very helpful. 
Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Pitts. The Chair thanks the gentleman.
    Now recognize the gentleman from Kentucky, Mr. Whitfield, 5 
minutes for questions.
    Mr. Whitfield. Well, thank you, Mr. Chairman. And I would 
like to thank all of the witnesses for joining us today and 
giving your views on this important legislation.
    Dr. Stack, I would like to follow up on the prescription 
drug monitoring programs as well. As you know, the first 
program came out of the Appropriations Committee and was placed 
over at the Department of Justice and was primarily focused on 
law enforcement issues, abuse. And then Mr. Pallone and I and 
others, Mr. Pitts and others, authorized the national 
Prescription Drug Monitoring Program. And as you have indicated 
in your testimony, ever since we started the program we have 
had difficulty getting the necessary appropriations, and we 
still are having difficulty doing that. We tried to merge the 
programs, and we have had some difficulty even doing that.
    But I guess the good news is that it is my understanding 
that now 47 States do have a prescription drug monitoring 
program. Certainly they are not all the same. But in your 
testimony, I think you referred to in Ohio in the emergency 
rooms, that you said 40 percent of providers, based on 
information they have received on the prescription drugs, 
change their prescription orders.
    Mr. Stack. Right. So in that particular study they found 
that 43 percent of prescribers produced less or prescribed no 
opioids at all based on the information they received.
    There is a second side to that, though. When I and my 
colleagues practice, there are quite a number of times when we 
look in the database and find that a patient has received no 
opioids ever. And in fact that helps to validate and help us to 
feel more comfortable that a short course of treatment is 
appropriate----
    Mr. Whitfield. Right.
    Mr. Stack [continuing]. In that patient. It helps both 
ways.
    Mr. Whitfield. Well, do you feel that the KASPER program in 
Kentucky is doing well or do you have any suggestions of how we 
could improve it or----
    Mr. Stack. So the KASPER program in Kentucky has come a 
long way. As recently as 2011, there were strong prohibitions 
in who could see it, who could share it----
    Mr. Whitfield. Right.
    Mr. Stack [continuing]. Enter it into the medical record. 
That has rapidly evolved, as you know, with House Bill 1 in the 
State of Kentucky and then the legislation the following year, 
in 2013, that made some corrective actions. So I would say that 
the KASPER program in Kentucky is evolving well.
    It did teach and show, I believe, something we feel 
strongly about, which is these tools are so rapidly evolving 
and are so uneven and heterogeneous across the country that 
mandating the use of these programs is not the appropriate 
approach; that, in fact, if we would work to standardize them, 
make them interoperable, and have realtime data, meaning I ask 
the database for an answer and I get it quickly, that the 
clinicians will use these tools when they function well. And we 
are only just beginning down that path.
    Mr. Whitfield. So you don't think mandating is necessary 
then?
    Mr. Stack. I don't think so. I think with countless other 
things, physicians have shown when the technology works and 
helps patients, we adopt it----
    Mr. Whitfield. Yes.
    Mr. Stack [continuing]. And when it is broken and doesn't 
work, we generally don't find it useful.
    Mr. Whitfield. Yes.
    Mr. Stack. We are getting to a better place. But NASPER is 
essential, because the States are so all over the map for the 
immaturity of their programs and the fact that they don't 
communicate with each other yet----
    Mr. Whitfield. Right.
    Mr. Stack [continuing]. That the relatively small 
investment on the Federal Government could help to jump start a 
profound evolution in advancement in these programs.
    Mr. Whitfield. Yes. Well, I really appreciate your taking 
time to come up and talk about it. As I said, we appreciate the 
issues that all of you have discussed. And as we move forward, 
Dr. Stack, maybe we could get together sometime and get some 
additional ideas from you on ways that we can try to merge 
these programs so that they can be as efficient and 
technologically advanced as possible.
    Mr. Stack. The AMA is definitely committed to working on 
this issue, and we would be happy to do that.
    Mr. Whitfield. Thank you so much.
    Oh, I yield to Dr. Burgess.
    Mr. Burgess. Oh, I am sorry. I have to leave.
    Mr. Whitfield. Oh. OK. Got to leave.
    Mr. Pitts. The Chair thanks the gentleman.
    Now recognize the gentleman from Texas, Mr. Green, for 5 
minutes for questions.
    Mr. Green. Thank you, Mr. Chairman.
    And I want to thank our panelists and thank the Chair and 
the ranking member for listing this number of bills on our 
schedule for today, because each of them address a certain 
part. And some of us who have been on the Health Subcommittee 
for years have dealt with these before, and, again, we 
appreciate your time this afternoon.
    And I would like to thank Mr. MtJoy for taking time to 
testify for the Family Health Care Accessibility Act, which 
would greatly benefit health centers and their patients. That 
just happens to be the one that Congressman Murphy and I have 
been working on. It seems like this is our third Congress. We 
passed it out of the House twice, and the Senate hasn't taken 
it up.
    In your testimony, you mention issues facing community 
health centers regarding recruitment and retention of 
healthcare providers. There are programs like the National 
Service Health Corps, but even the current number of National 
Health Service Corps scholarships and awards, there is a 
primary care shortage. Can you give us some examples of why 
health centers have difficulty retaining or recruiting 
providers?
    Mr. MtJoy. Well, even with the recent investments in 
expanding the National Health Service Corps, the demand still 
outpaces the supply of healthcare providers. And this is 
particularly true in rural areas, such as where I am from. 
Healthcare providers generally aren't from rural areas, whereas 
we try a number of initiatives to what I will call grow your 
own. Certainly recruitment and retention is one of the largest 
or most challenging areas of providing healthcare, certainly 
for us.
    Mr. Green. And I know there are a lot of programs over the 
years have tried to encourage, you know, loan forgiveness and 
things like that to have physicians go to rural areas. How will 
the Family Health Care Accessibility Act help health centers 
meet that growing demand for primary health care?
    Mr. MtJoy. Well, again, it will expand our provider base. 
And as we struggle to meet the demands of our patients, 
recruitment and retention of providers, expanding our primary 
provider base is one more method of helping us do that.
    Mr. Green. And I know, I represent a very urban area in 
Houston, Texas, and our federally qualified health centers have 
some of the same challenges, even though we have three medical 
schools within 50 miles, of attracting primary care physicians. 
You stated that one untapped resource for meeting the demand 
for primary care is volunteers, and especially retiring or 
retired health practitioners. If Congress were to pass the 
Family Health Care Accessibility Act, what type of 
practitioners would you hope and expect to volunteer their time 
in your health centers?
    Mr. MtJoy. Well, I have spent or focused most of my 
attention on physicians, but in addition to physicians, for 
instance at Cornerstone Care and other community health centers 
across the country, this also includes nurse practitioners, 
physician assistants, dentists, licensed social workers, et 
cetera. So, again, it crosses the gamut of provider types.
    Mr. Green. And I have always said if I can get a primary 
care or a person, not even a volunteer, into community health 
centers, they would know they can actually practice medicine 
and maybe make a decent living for their families.
    Can you explain to the members of the subcommittee how 
training in health centers increase the likelihood that an 
individual would be more likely to stay in the community where 
they complete their training?
    Mr. MtJoy. Well, absolutely. We try to expand our provider 
base by providing training opportunities for a variety of 
disciplines that I have just mentioned, from PAs to nurse 
practitioners, et cetera. Recently Cornerstone Care became one 
of the new teaching health centers, and we have got our first 
class of residents now in the program and recruiting our 
second.
    We have found that when healthcare providers, particularly 
physicians, do their training or part of their training at 
community health centers, they are two-thirds more likely to 
return to that type of practice following their training.
    Mr. Green. OK. Thank you, Mr. Chairman. I will yield back a 
few seconds. But again, thank you for scheduling this bill 
today.
    Mr. Pitts. The Chair thanks the gentleman.
    Now recognize the gentleman from Virginia, Mr. Griffith, 5 
minutes for questions.
    Mr. Griffith. Thank you very much, Mr. Chairman. I, too, am 
very appreciative of the fact that we have all of these 
witnesses here, and the testimony that you gave on each of the 
various issues was very important and enlightening.
    Mr. Chairman, I will take a minute to talk about Lyme 
disease and ask a question of our witness on that, Ms. Smith. 
But Lyme disease is a growing problem throughout our State, but 
it is endemic in northern Virginia. Our representatives from 
the local, State, and Federal levels are working aggressively 
to raise awareness about this issue for our citizens and 
medical providers to encourage prevention, quick diagnosis, and 
treatment. My colleagues and I in the Virginia delegation, 
particularly Congressmen Frank Wolf and Rob Wittman, appreciate 
you having this hearing. I should also mention that Barbara 
Comstock is working on this in the Virginia House of Delegates, 
as well.
    Ms. Smith, H.R. 610 requires that Tick-Borne Diseases 
Advisory group include members that represent State and local 
healthcare professionals, individuals who have firsthand 
experience with tick-borne disease, and representatives of a 
tick-borne voluntary organization. How do you think this will 
help to enhance communication amongst the Federal agencies?
    Ms. Smith. Well, I think, unfortunately, what has happened 
right now is oftentimes what I see is that the agencies--now, 
they are trying to do a good job in their area, but it is not 
always communicated into other areas as to what kinds of 
projects they are doing. Plus, there is really not a national 
strategy to attack tick-borne diseases. And so over the 30 
years what I have seen, the numbers have grown, you know, 
greatly, the numbers of ticks, the numbers of diseases.
    And so if you put people on there who have perspectives--
for example, we have no clinical treating physicians have a 
perspective right now, are able to give their perspective to 
the Federal Government about what research projects they feel 
are important. They are seeing a lot of people with very 
serious chronic Lyme disease, which is different than just 
getting a tick bite and getting, you know, a few weeks and 
getting better.
    So they are seeing people with these debilitating symptoms. 
They have all this knowledge that they have gleaned from many 
years of treatment, and they are able, for example, to look at 
the results of Lyme disease testing, and sometimes, even though 
the test may come back and it says it is negative, they are 
able to read the bands from their clinical experience and 
determine, yes, these people really do have Lyme disease and 
they require extensive treatment.
    And so they would be able to take this kind of knowledge, 
because one of the biggest factors, and I think everybody 
agrees on this, we need testing that is, you know, a gold 
standard. We don't have that now. We are missing so many 
patients, and they go on to develop these intense symptoms that 
are not only causing them a lot of health disability, but are 
also causing obviously great, tremendous costs to their 
families, to the government, et cetera.
    So if the clinicians could provide their input, it would be 
a better chance that we could get diagnostic tests. Also, tests 
need to be found that will determine whether someone has active 
infection.
    Mr. Griffith. And you believe that this bill will help 
that. And I do appreciate it and appreciate your testimony. I 
am going to move on to another subject, because, unfortunately, 
while I would like to talk to each one of you, I only have a 
few minutes.
    That being said, I will move to the NASPER bill and pick up 
where Congressman Whitfield left off. It is a very serious 
issue in lots of the country. It is particularly a serious 
problem in my district in southwest Virginia. A study done 
there by the United States Attorney's Office for the Western 
District of Virginia found serious problems, that this was a 
major impact on our region.
    And the study also cited that just four counties, which 
have 1 percent of Virginia's population, accounted for the 
Virginia State Police spending 25 percent of their statewide 
undercover purchase funds buying prescription medications in 
those four counties. Likewise, the chief medical examiner's 
office in Roanoke says that deaths are up by 40 percent as a 
result of the activities with prescription drugs.
    Doctor shopping contributes to this spread. I think we need 
to do more to prevent this practice, which is why I support the 
lock-in mechanism that many private insurers are utilizing, and 
I think that would be helpful.
    Dr. Stack, is there anything you would like to in 23 
seconds tell us what you didn't touch on when you were 
answering Mr. Whitfield?
    Mr. Stack. No. We share that this is critical, but you just 
touched in your own testimony how it is a variable problem that 
affects different communities more intensively, which is why we 
don't believe a one-size-fits-all for some of the other 
strategies is appropriate, because it will misapply strategies 
in some areas and under-apply them in different places. So we 
believe NASPER, everyone agrees, all the stakeholders agree 
these PDMPs are an essential tool. The other strategies, we 
could have a longer discussion another day about where they may 
be best applied.
    Mr. Griffith. I appreciate it very much. And with that, Mr. 
Chairman, I yield back.
    Mr. Pitts. The Chair thanks the gentleman.
    Now recognize the gentleman from New Jersey, Mr. Lance, 5 
minutes for questions.
    Mr. Lance. Thank you very much, Mr. Chairman. Good 
afternoon to the panel.
    To Dr. McCabe, the Senate bill, the companion bill, 
contains a priority review process for nominating new diseases 
that meet certain criteria. Would you please discuss with us 
this provision and its impact on the screening process and the 
health of children.
    Mr. McCabe. Yes. That is a difference between the two 
bills. We feel that it is important as the March of Dimes that 
there be timely, swift consideration of new entities, and these 
were submitted from the Secretary's Advisory Committee. So 
there needs to be rigorous scientific integrity around that, 
but we do feel that there needs to be swift movement once 
action is taken by the Secretary's Advisory Committee.
    Mr. Lance. Thank you.
    We are hearing increasingly that in the not-too-distant 
future, next generation DNA-based sequencing may allow the 
rapid analysis of a newborn's genome, possibly replacing some 
or even all of the current newborn screening techniques that 
rely on biochemical changes in the blood. Do you see that is 
happening in the near term and do you have any thoughts on the 
advantages or disadvantages of genome sequencing compared to 
current techniques?
    Mr. McCabe. That is something I have watched very closely, 
because my lab was the first to show that you could get DNA----
    Mr. Lance. Yes.
    Mr. McCabe [continuing]. From the newborn screening spots. 
The NIH has funded, both NHGRI and NICHD, have funded four 
institutions to look at this problem, not only to look at the 
technology and can you sequence in a reliable fashion from the 
DNA in the newborn screening, but all of the ethical, legal, 
social implications, and policy issues around that. So I think 
this is important work that you bring attention to, and it is 
being funded now by two institutes that are heavily invested in 
this, and we are all looking forward to the results.
    Mr. Lance. Do you think that H.R. 1281 should be altered in 
any fashion to take into account what we were just discussing?
    Mr. McCabe. I think that the research has just begun. Those 
are 5-year research projects that were just established. I 
think there would be opportunities in the future. Certainly I 
think it is important to recognize that there may be other 
technologies, such as DNA sequencing, that will come along.
    I think it is also important to recognize that there is 
NICHD authorization for funding for the project to continue to 
develop new technologies in the future. But, yes, it should 
encompass new technologies, but I think that is one of the 
things that the Secretary's Advisory Committee would allow. It 
allows the community to be nimble if new technologies do come 
along.
    Mr. Lance. Thank you very much.
    To Dr. Ford, can you point to a specific example of a 
situation where a poison center's being located within a 
community or geographic area has benefited public health 
surveillance?
    Ms. Ford. Yes. Well, first of all, I think that in many 
ways with regard to emergency preparedness planning, working 
with EMS, the public health outreach, the education of the 
healthcare providers in a region that are done through the 
regional poison center are very, very important. It was one 
study done that showed that as the distance between a poison 
center and the caller increases, it is less likely that that 
caller is going to call that poison center.
    Mr. Lance. Yes.
    Ms. Ford. And I believe that that probably needs to be 
studied further, but I believe that it is true that you are 
more likely to use a service that you are more intimately 
associated and familiar with.
    Mr. Lance. Thank you to this very distinguished panel. And 
I yield back the 30 seconds I have.
    Mr. Pitts. The Chair thanks the gentleman.
    That concludes the questions of the members present. Other 
members will have questions, and we will have some follow-up 
questions. We will submit those to you in writing. We ask the 
witnesses to please respond promptly.
    Thank you very much. This has been very important 
information, very important issues. We thank you for coming 
today.
    I remind members that they have 10 business days to submit 
questions for the record, and that would be by the close of 
business on Friday, December 6th.
    Thank you very much for your attendance.
    Without objection, the subcommittee is adjourned.
    [Whereupon, at 4:28 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T7804.159
    
    [GRAPHIC] [TIFF OMITTED] T7804.160
    
    [GRAPHIC] [TIFF OMITTED] T7804.161
    
    [GRAPHIC] [TIFF OMITTED] T7804.162
    
    [GRAPHIC] [TIFF OMITTED] T7804.163
    
    [GRAPHIC] [TIFF OMITTED] T7804.164
    
    [GRAPHIC] [TIFF OMITTED] T7804.165
    
    [GRAPHIC] [TIFF OMITTED] T7804.166
    
    [GRAPHIC] [TIFF OMITTED] T7804.167
    
    [GRAPHIC] [TIFF OMITTED] T7804.168
    
    [GRAPHIC] [TIFF OMITTED] T7804.169
    
    [GRAPHIC] [TIFF OMITTED] T7804.170
    
    [GRAPHIC] [TIFF OMITTED] T7804.171
    
    [GRAPHIC] [TIFF OMITTED] T7804.172
    
    [GRAPHIC] [TIFF OMITTED] T7804.173
    
    [GRAPHIC] [TIFF OMITTED] T7804.174
    
    [GRAPHIC] [TIFF OMITTED] T7804.175
    
    [GRAPHIC] [TIFF OMITTED] T7804.176
    

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
